No. _______

In the
Supreme Court of the United States
In re Alfred Paul Centofanti, III
Alfred Paul Centofanti, III,
Petitioner,
v.
United States District Court, District of Nevada,
Respondent,
and
Dwight W. Neven and the Attorney General of Nevada,
Real parties in interest.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Motion for leave to proceed in forma pauperis

Rene L. Valladares
Federal Public Defender, District of Nevada
*Jeremy C. Baron
Assistant Federal Public Defender
411 E. Bonneville Ave. Suite 250
Las Vegas, Nevada 89101
(702) 388-6577 | jeremy_baron@fd.org
*Counsel of record for Alfred Centofanti

Petitioner Alfred Centofanti respectfully requests leave to file the attached
petition for a writ of certiorari without prepayment of costs and to proceed in forma
pauperis.

The United States District Court, District of Nevada, appointed the

Federal Public Defender, District of Nevada, to represent Mr. Centofanti under 18
U.S.C. ยง3006A(a)(2)(B).

Because the district court appointed counsel for Mr.

Centofanti, he need not file a corresponding affidavit or declaration. See Supreme
Court Rule 39.1.

Dated January 22, 2021.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jeremy C. Baron
Jeremy C. Baron
Assistant Federal Public Defender

2

